  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




       MISSOURI INCORRECTLY
CLAIMED FEDERAL REIMBURSEMENT FOR
INPATIENT CLAIMS WITH STERILIZATION
   AND DELIVERY PROCEDURES FOR
   CALENDAR YEARS 2009 AND 2010



    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Patrick J. Cogley
                                                 Regional Inspector General

                                                         March 2013
                                                        A-07-12-01121
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Missouri, the Department of Social Services,
Missouri HealthNet Division (the State agency), is responsible for administering the Medicaid
program.

Consistent with this responsibility, the State agency submits to CMS, on a quarterly basis, its
standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program (CMS-64 report), to report Medicaid expenditures for Federal
reimbursement.

The amount that the Federal Government reimburses to State Medicaid agencies, known as
Federal financial participation or Federal share, is determined by the Federal medical assistance
percentage (FMAP). The FMAP is a variable rate that is based on a State’s relative per capita
income. The State agency’s FMAP ranged from 71.24 percent to 74.43 percent for claims paid
during calendar years (CY) 2009 and 2010.

Federal requirements authorize Federal reimbursement at an enhanced 90-percent rate (90-
percent rate) for family planning services, which include services that prevent or delay
pregnancy or otherwise control family size and may also include sterilization procedures. When
sterilization and delivery procedures are performed during a single hospital stay, CMS requires
that the State agency’s claim for Federal reimbursement distinguish between those costs
attributable to family planning (eligible for Federal reimbursement at the 90-percent rate) and
those costs attributable to other covered services (reimbursed at the FMAP).

During CYs 2009 and 2010, the State agency reported costs of $5,314,666 for 2,919 inpatient
claims with sterilization and delivery procedures. These costs served as the State agency’s basis
for claiming Federal reimbursement.

OBJECTIVE

Our objective was to determine whether the inpatient claims with sterilization and delivery
procedures that the State agency claimed as family planning services for CYs 2009 and 2010
qualified for Federal reimbursement at the 90-percent rate.

SUMMARY OF FINDING

None of the 2,919 inpatient claims with sterilization and delivery procedures that the State
agency claimed as family planning services for CYs 2009 and 2010 qualified for Federal

                                                 i
reimbursement at the 90-percent rate. The State agency claimed costs for both procedures at the
90-percent rate on the CMS-64 reports. Because the State agency did not distinguish between
the costs for family planning services (eligible for Federal reimbursement at the 90-percent rate)
and those for non-family planning services (reimbursed at the FMAP), the State agency is not
entitled to Federal reimbursement at the 90-percent rate for any of the claims.

The difference between the amounts associated with these two rates was $862,398, which
represents excess Federal reimbursement for the 2,919 family planning inpatient claims.

This excess Federal reimbursement occurred because the State agency had not implemented
policies and procedures to ensure that it claimed Medicaid costs for inpatient claims with
sterilization and delivery procedures pursuant to Federal requirements.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $862,398 to the Federal Government,

   •   review costs for inpatient claims with sterilization and delivery procedures for quarterly
       reporting periods after our audit period and refund any overpayments to the Federal
       Government, and

   •   work with CMS to develop and implement policies and procedures that include a
       reasonable methodology to ensure that costs for inpatient claims with sterilization and
       delivery procedures are claimed pursuant to Federal requirements.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our third recommendation
but disagreed with our first and second recommendations. With respect to the claimed costs that
we are questioning, the State agency said that its policy “…was to claim the entire inpatient
claim at the ninety percent rate. Therefore, [the State agency] believes it is unreasonable to not
allow any of the claims, or portion thereof, to be claimed at the ninety percent rate.”

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in the State agency’s comments caused us to change our findings or recommendations.

We acknowledge that the 2,919 inpatient claims that we reviewed contained sterilization
procedures and that the associated costs were eligible for Federal reimbursement at the 90-
percent rate—but only when claimed in accordance with Federal requirements. Specifically, in
each instance when sterilization and delivery procedures were performed during a single hospital
stay, a State Medicaid agency must distinguish between the cost for a sterilization procedure and
the cost for a delivery. Moreover, the U.S. Department of Health and Human Services,
Departmental Appeals Board, has ruled in a similar circumstance that without a reasonable

                                                ii
method to distinguish these costs, a State Medicaid agency is not entitled to Federal
reimbursement at the 90-percent rate.

Because the State agency did not distinguish between these costs, we maintain that the State
agency is not entitled to Federal reimbursement at the 90-percent rate for any portion of these
claims.




                                                iii
                                                 TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION ................................................................................................................. 1

      BACKGROUND ............................................................................................................. 1
            Medicaid Program ............................................................................................ 1
            Missouri Medicaid Program ............................................................................ 1
            Medicaid Coverage of Family Planning Services ............................................ 1
            Family Planning Inpatient Sterilization Procedure Claims in Missouri .......... 2

      OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 2
             Objective .......................................................................................................... 2
             Scope................................................................................................................ 2
             Methodology .................................................................................................... 3

FINDING AND RECOMMENDATIONS .......................................................................... 3

      FEDERAL REQUIREMENTS ........................................................................................ 4

      INCORRECT FEDERAL REIMBURSEMENT FOR INPATIENT
        STERILIZATION AND DELIVERY PROCEDURES.............................................. 4

      POLICIES AND PROCEDURES LACKING ................................................................. 5

      EXCESS FEDERAL REIMBURSEMENT ..................................................................... 5

      RECOMMENDATIONS ................................................................................................. 5

      STATE AGENCY COMMENTS .................................................................................... 5

      OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................... 6

APPENDIXES

      A: CALCULATION OF QUESTIONED COSTS BY QUARTER

      B: STATE AGENCY COMMENTS




                                                                   iv
                                     INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal
and State Governments jointly fund and administer the Medicaid program. At the Federal
level, the Centers for Medicare & Medicaid Services (CMS) administers the program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid
program, it must comply with applicable Federal requirements.

States use the standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program (CMS-64 report), to report actual Medicaid expenditures for
each quarter and CMS uses it to reimburse States for the Federal share of Medicaid
expenditures. The amounts reported on the CMS-64 report and its attachments must represent
actual expenditures and be supported by documentation.

Missouri Medicaid Program

In Missouri, the Department of Social Services, Missouri HealthNet Division (the State
agency), is responsible for administering the Medicaid program. The amount that the Federal
Government reimburses to State Medicaid agencies, known as Federal financial participation
(FFP) or Federal share, is determined by the Federal medical assistance percentage (FMAP).
The FMAP is a variable rate that is based on a State’s relative per capita income. The State
agency’s FMAP ranged from 71.24 percent to 74.43 percent for claims paid during calendar
years (CY) 2009 and 2010.

The State agency uses its Medicaid Management Information System (MMIS) to process
claims. MMIS is a computerized payment and information reporting system that States are
required to use to process and pay Medicaid claims.

Medicaid Coverage of Family Planning Services

Section 1905(a)(4)(C) of the Act requires States to furnish family planning services and
supplies to individuals of childbearing age (including minors who can be considered to be
sexually active) who are eligible under the State plan and who desire such services and
supplies. Section 1903(a)(5) of the Act and 42 CFR §§ 433.10(c)(1) and 433.15(b)(2)
authorize Federal reimbursement at an enhanced 90-percent rate (90-percent rate) for family
planning services.

Section 4270 of the CMS State Medicaid Manual (the manual) describes family planning
services as those that prevent or delay pregnancy or otherwise control family size. Family
planning services include, but are not limited to, the following items and services: counseling
services and patient education, examination and treatment by medical professionals in

                                                1
accordance with States’ requirements, devices to prevent conception, and sterilization
procedures; and may include infertility services, including sterilization reversals.

The CMS Financial Management Review Guide Number 20: Family Planning Services (the
guide) provides specific instructions for performing financial management reviews of claims
for family planning services. The guide, published in 2002, incorporates by reference a 1980
memorandum on CMS’s policy for allocating family planning inpatient hospital costs in cases
when multiple procedures are performed. The guide also incorporates the 1991 U.S.
Department of Health and Human Services, Departmental Appeals Board (DAB), Decision
No. 1284 which addresses the methodology for allocating these costs in cases when multiple
procedures are performed.

Family Planning Inpatient Sterilization Procedure Claims in Missouri

The State agency used computer programs to identify family planning inpatient claims
according to diagnosis and procedure codes. The programs accessed the MMIS, which
contains records of paid claims, and produced reports that listed claims with family planning
services. Each month, the State agency generated a document called a sterilization report,
which included inpatient claims that included sterilization procedures. This report listed, in
summary format, the total costs for these claims and did not distinguish between the costs for
family planning services and those for non-family planning services. The State agency used
these reports for claiming family planning inpatient sterilization expenditures for Federal
reimbursement on the CMS-64 reports.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the inpatient claims with sterilization and delivery
procedures that the State agency claimed as family planning services for CYs 2009 and 2010
qualified for Federal reimbursement at the 90-percent rate.

Scope

We reviewed 2,919 inpatient claims with sterilization procedures for CYs 2009 and 2010 for
which the State agency claimed costs totaling $5,314,666. We reviewed the FFP rates used to
calculate the Federal reimbursement that the State agency received from its claimed
expenditures, but we did not review the medical necessity of the claims. Further, we did not
review the overall internal control structure of the State agency or the Medicaid program. We
reviewed only the internal controls that pertained directly to our objectives.

We performed fieldwork at the State agency’s offices in Jefferson City, Missouri, from
January through May 2012.




                                                2
Methodology

To accomplish our objective, we:

   •   reviewed Federal laws, regulations, and guidance and the State plan;

   •   held discussions with CMS officials to gain an understanding of CMS requirements
       and guidance furnished to State agency officials concerning Medicaid family planning
       claims;

   •   held discussions with State agency officials to gain an understanding of how the State
       agency claimed Medicaid reimbursement for family planning inpatient sterilization
       procedures;

   •   reconciled a list of inpatient claims with sterilization and delivery procedures with the
       State agency’s sterilization reports and with the amounts claimed on the CMS-64
       reports, and for these claims:

           o identified the costs that the State agency claimed for reimbursement at the
             90-percent rate and

           o calculated the amounts associated with the difference between the 90-percent
             rate and the FMAP; and

   •   discussed the results of our review with State agency officials and provided them with
       a list of questioned costs by quarter on August 30, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our finding and conclusions based on our audit objectives.

                         FINDING AND RECOMMENDATIONS

None of the 2,919 inpatient claims with sterilization and delivery procedures that the State
agency claimed as family planning services for CYs 2009 and 2010 qualified for Federal
reimbursement at the 90-percent rate. The State agency claimed costs for both procedures at
the 90-percent rate on the CMS-64 reports. Because the State agency did not distinguish
between the costs for family planning services (eligible for Federal reimbursement at the 90-
percent rate) and those for non-family planning services (reimbursed at the FMAP), the State
agency is not entitled to Federal reimbursement at the 90-percent rate for any of the claims.

The difference between the amounts associated with these two rates was $862,398, which
represents excess Federal reimbursement for the 2,919 family planning inpatient claims.


                                                 3
This excess Federal reimbursement occurred because the State agency had not implemented
policies and procedures to ensure that it claimed Medicaid costs for inpatient claims with
sterilization and delivery procedures pursuant to Federal requirements.

FEDERAL REQUIREMENTS

Federal regulations (42 CFR § 433.32(a)) require that the State agency “[m]aintain an
accounting system and supporting fiscal records to assure that claims for Federal funds
[reported on the CMS-64 report] are in accord with applicable Federal requirements ….”

Pursuant to section 4270 of the manual, only items and procedures clearly furnished or
provided for family planning purposes may be claimed at the 90-percent rate.

According to the guide, in order to be claimed at the 90-percent rate, the cost of a sterilization
procedure must be distinguished from the delivery cost when sterilization and delivery
procedures are performed during a single hospital stay. The 1980 CMS policy memorandum
that is incorporated within the guide further states that when multiple procedures are
performed during a single hospital stay and submitted as a single inpatient claim, a State’s
claim for Federal reimbursement must distinguish between those costs attributable to family
planning (eligible for Federal reimbursement at the 90-percent rate) and those non-family
planning costs attributable to other covered services (reimbursed at the FMAP). CMS does
not require a specific allocation method, but requires that the reasonableness of the
methodology be determined on a State-by-State basis.

Additionally, the DAB ruled that the method adopted by a State agency must reasonably serve
to claim the appropriate rate of Federal reimbursement. The DAB added that without a
reasonable method to make this allocation properly, the State is not entitled to Federal
reimbursement at the 90-percent rate. 1

INCORRECT FEDERAL REIMBURSEMENT FOR INPATIENT
STERILIZATION AND DELIVERY PROCEDURES

None of the inpatient claims with sterilization and delivery procedures that the State agency
claimed as family planning services for CYs 2009 and 2010 qualified for Federal requirement
at the 90-percent rate. For all 2,919 inpatient claims in which sterilization procedures had
been performed in addition to delivery procedures during single hospital stays, the State
agency claimed costs for both procedures at the 90-percent rate on the CMS-64 reports.

The State agency used its sterilization reports, which included all costs for inpatient claims
with sterilization and delivery procedures, to prepare the CMS-64 reports for each quarter in
our audit period. However, the sterilization reports themselves did not distinguish between
those costs attributable to family planning services and those costs attributable to non-family
planning services.



1
    New York State Department of Social Services, DAB No. 1284 (1991).

                                                       4
POLICIES AND PROCEDURES LACKING

These errors occurred because the State agency had not implemented policies and procedures
to ensure that it claimed Medicaid costs for inpatient claims with sterilization and delivery
procedures pursuant to Federal requirements. For these claims, the State agency did not have
a methodology to distinguish between costs for family planning services and costs for non-
family planning services, and thereby to claim sterilization procedures at the 90-percent rate
and claim delivery procedures at the FMAP.

EXCESS FEDERAL REIMBURSEMENT

Because the State agency did not properly distinguish between the costs for family planning
services and those for non-family planning services, the State agency is not entitled to Federal
reimbursement at the 90-percent rate for any of the 2,919 claims. Accordingly, the State
agency received $862,398 in excess Federal reimbursement, which represents the amount
associated with the difference between the 90-percent rate and the FMAP.

The details of the excess Federal reimbursement are listed in Appendix A.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $862,398 to the Federal Government,

   •   review costs for inpatient claims with sterilization and delivery procedures for
       quarterly reporting periods after our audit period and refund any overpayments to the
       Federal Government, and

   •   work with CMS to develop and implement policies and procedures that include a
       reasonable methodology to ensure that costs for inpatient claims with sterilization and
       delivery procedures are claimed pursuant to Federal requirements.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency disagreed with our first and second
recommendations. The State agency said that “[t]he claims in question were clearly identified
as claims for sterilization procedures” and added that its policy in effect during the audit
period “… was to claim the entire inpatient claim at the ninety percent rate. Therefore, [the
State agency] believes it is unreasonable to not allow any of the claims, or portion thereof, to
be claimed at the ninety percent rate.”

The State agency agreed with our third recommendation and said that it would work with
CMS in the future to develop and implement an acceptable methodology.

The State agency’s comments appear in their entirety as Appendix B.

                                                 5
OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in the State agency’s comments caused us to change our findings or
recommendations.

We acknowledge that the 2,919 inpatient claims that we reviewed contained sterilization
procedures and that the associated costs were eligible for Federal reimbursement at the 90-
percent rate—but only when claimed in accordance with Federal requirements. However,
each of these claims contained both sterilization and delivery procedures. For these instances,
CMS provided clear guidance in 1980 on how to claim these costs, guidance which the DAB
upheld in 1991.

The CMS Financial Management Review Guide Number 20: Family Planning Services states
that in order to be claimed at the 90-percent rate, the cost of a sterilization procedure must be
distinguished from the cost of delivery in each instance when sterilization and delivery
procedures are performed during a single hospital stay. Moreover, the DAB has ruled in a
similar circumstance that without a reasonable method to distinguish these costs, a State
Medicaid agency is not entitled to Federal reimbursement at the 90-percent rate.

Because the State agency did not distinguish between these costs, we maintain that the State
agency is not entitled to Federal reimbursement at the 90-percent rate for any portion of these
claims.




                                                 6
APPENDIXES
      APPENDIX A: CALCULATION OF QUESTIONED COSTS BY QUARTER

The Department of Social Services, Missouri HealthNet Division (the State agency) received
$862,398 in excess Federal reimbursement. That amount consists of the difference between
Federal reimbursement at the enhanced 90-percent rate (90-percent rate) ($4,783,200) and the
amount associated with the lower Federal medical assistance percentage (FMAP) rates
($3,920,802). The following table presents details of the excess Federal reimbursement by
quarter for Medicaid family planning inpatient sterilization and delivery procedures.

                           Table: Excess Federal Reimbursement

                                    Amounts at        Amounts at
                Quarter             90-Percent         FMAP           Net Difference
                Ended                  Rate             Rates        Questioned Costs

                   03/31/2009         $568,580        ($450,063)       $118,517
                   06/30/2009          564,276         (459,383)        104,893
                   09/30/2009          580,223         (472,366)        107,857
                   12/31/2009          657,677          (543,899)       113,778
                   03/31/2010          602,836         (498,545)        104,291
                   06/30/2010          631,961         (522,632)        109,329
                   09/30/2010          621,192         (513,726)        107,466
                   12/31/2010          556,455         (460,188)         96,267

                Total              $4,783,200        ($3,920,802)      $862,398
                                                                                                                                                                                    Page 1 of 2


                 APPENDIX B: STATE AGENCY COMMENTS




               YOur Pott•ntirtl. Our Srt/J/JOri
                                                                             JI..REM IAH W. (JAY) NIXON, GOVERNOR • ALAN                                     0. FRcUMAN, DIRI!CrQR
----NW-~----------~-------------------                     P0.t~)'1( h1~·r;{ll\I}Li,'.""""
                                                                                                            ---     o .,      1 Hull li'K··J~P o(sc~~r-•r
                                                                                                                                                                            ----
                                                                                                                                                                             MO(·.c;lfi~~ ~ ~,.,
                                                                                                                \W\\      ,....,~_.i   ..•.QV•;>/).. "'~•q.-J-' 1 )   •   ~ 7 ::~751-32f)).:   ,;:




                                                          February 13, 2013


   Patrick Cogley
   Regional Inspector General for Audit Services
   Office of Inspector General
   Office of Audit Services, Region VII
   601 East 12th Street, Region 0429
   Kan sas City, MO 64106

   Re:   OIG Report Number: A-07-12-01121

   Dear Mr. Cogley:

   This is in respon se to the Office of Inspector General's (OIG) draft report entitled " Missouri
   Incorrectly Claimed Federal Reimbursement for Inpatient Claims With Sterilization and Delivery
   Procedures for Calendar Years 2009 and 2010", Report Number A-07-12-01121. The Department
   of Social Services' (DSS) responses are below. The OIG recomm endations are restated for ease of
   reference.

   Recommendation 1: The OIG recommends that the State agency refund $862,398 to the Federal
   Government.

   DSS Response: The DSS disagrees with this findi ng. The claims in question were clearly ident ified
   as claims for sterilization procedures. Missouri's policy in effect during the audit period was to
   claim the entire inpatient claim at the ninety percent rate. Therefore, DSS believes it is
   unreasonable to not allow any of the claims, or portion t hereof, to be claimed at the ninety
   percent rate.

   Recommendation 2: The OIG recommends that the State agency review costs for inpatient
   claims with sterilization and delivery procedures for quarterly reporting periods after our audit
   period and refund any overpayments to the Federal Government.

   DSS Response: The DSS disagrees with this finding as explained in the response to
   Recommendation 1.

                                                                 R ElAY MISSOURI
                                                    FOR 111\Ail iNC AND SP!iliCH IMPAIRED
                                     1-800-735-241\6 VOICh • 1-K00·735-29661'11XT PIIONE
                            An l!~fllltl Oppm111JIUJ' l:itlplnyc-,., .~~~·vi,'f:,\ provlll4fd on u tNffNil't(:,'MIIIttlfm:v Jto..·J.t.
                                                                                                  Page 2 of 2





P~t rick Cogley
Page Two




Recommendation 3: The OIG recommends that the State agency work with CMS to develop and
implement policies and procedures that include a reasonable methodology to ensure that costs
for inpatient claims with sterilization and delivery procedures are claims pursuant to Federal
requirements.

DSS Response: The DSS agrees to work with CMS in the future to develop and implement an
acceptable methodology to distinquish costs attributable to fa mily planning from other covered
services to ensure appropriate claiming pursuant t o Federal requirements.

Please contact Jennifer Tidball, Director, Division of Finance and Administrative Services at
(573)751-7533 if you have further questions.

Sincerely,


~ ;~-
Alan 0. Freeman
                  ..
Direct or

AOF:JC:bsb
